i*
j"

NO.

IN THE
SUPREME COURT OF THE UNITD STATES

ALFRED CROSS-Petitioner,

vs.

UNITED STATES OF AMERICA-Respondent.

ON PETITION FOR A WRIT OF CERTIORARI TO
SEVENTH CIRCUIT COURT OF APPEALS
CASE NO: 3:17-CR-30047-HJR-l

PROOF OF SERVICE

I, Alfred Cross, do swear or declare that on this date, January 30, 2021, as
required by Supreme Court Rule 29,1 have served the enclosed MOTION FOR
LEAVE TO PROCEED IN FORMA PAUPERIS, MOTION FOR LEAVE TO
REINSTATE, and PETITION FOR A WRIT OF CERTIORARI on each party to
the above proceeding or that party’s counsel, and on every other person required to
be served, by depositing an envelope containing the above documents in the United
States mail properly addressed to each of them and with first-class postage prepaid,
or by delivery to a third-party commercial carrier for delivery within 3 calendar
days.

RECEIVED
FEB -4 2021

OFFICE OF TWFC(.|=PK

The names and addresses of those served are as follows:
Office of the Solicitor General
950 Pennsylvania Ave., NW
Washington, D.C. 20530-0001

Scott A. Verseman
Assist. U.S. Attorney
9 Executive Drive
Suite 300
Fairview Heights, Illinois 62208
618-628-3720

I declare under penalty of peijury that the foregoing is true and correct.
Dated:

!- 3O

,2021

By:
Alfred
Re^o: 00722-027
FCI Butner
P.O. Box 1000
Butner, NC 27529
Petitioner, Pro se.

